Case: 20-40296

Document: 00515579874

Page: 1

Date Filed: 09/25/2020

Umteb States! Court of appeals:
for tlje Jftftf) Circuit
No. 20-40296
A True Copy
Certified order issued Sep 25, 2020

W. £o*u

Weldon Boyce Bridges,

Clerk, US. Court of Appeals, Fifth «

Petitioner—-Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 9:17-CV-2

ORDER:
Weldon Boyce Bridges, Texas prisoner # 1585306, pleaded guilty to
aggravated sexual assault of a child and was sentenced to a 22-year term of
imprisonment. He has moved for a certificate of appealability (COA) to
appeal the dismissal of his 28 U.S.C. § 2254 petition, which he filed to
challenge his conviction and his sentence. Bridges’s motion for leave to file
a supplemental COA brief is GRANTED.
To obtain a COA, a prisoner must make “a substantial showing of the
!>

denial of a constitutional right.”

28 U.S.C. § 2253(c)(2); see Slack

v. McDaniel, 529 U.S. 473, 483-84 (2000). Where the district court denies

•

Case: 20-40296

Document: 00515579874

Page: 2

Date Filed: 09/25/2020

No. 20-40296

i)
5)

relief on the merits, a movant must show that reasonable jurists “would find
the district court’s assessment of the constitutional claims debatable or
wrong.” Slacky 529 U.S. at 484. Where the district court denies federal
habeas relief on procedural grounds, the movant must demonstrate that
reasonable jurists “would find it debatable whether the petition states a valid
claim of the denial of a constitutional right” and “whether the district court
was correct in its procedural ruling.” Id. A movant satisfies the COA
standard “by demonstrating that jurists of reason could disagree with the
district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to
proceed further.” Miller-Elv. Cockrell, 537 U.S. 322,327 (2003).
Most of Bridges’s COA filings are devoted to arguing the merits of his
claims regarding his guilty plea conviction, his efforts to obtain DNA testing,
and his state habeas petition. In addition to arguing the merits of his claims,
Bridges asserts that he was granted an out-of-time appeal and that his actual
innocence would have been established if evidence had been received from
Valerie Murphy, a registered nurse he describes as the State’s witness.
Bridges does not challenge the district court’s determination that, as
to his claims concerning his guilty plea and events that occurred prior to the
plea^ the one-year limitations period began to run when his conviction
became final and that the limitations period expired before he filed his motion
for DNA testing and his state habeas petition. He also does not challenge the
district court’s determination that he is not entitled to equitable tolling.
Bridges has therefore abandoned these issues by failing to brief them in his
COA filings. See Hughes v. Johnson, 191 F.3d 607,613 (5th Cir. 1999).
Bridges has failed to show that reasonable jurists could debate the
correctness of the district court’s dismissal, as time barred, of his claims
concerning the guilty plea and pre-plea events. See Slack, 529 U.S. at 484;

2

%

Case: 20-40296

Document: 00515579874

Page: 3

Date Filed: 09/25/2020

No. 20-40296

see also McQuiggin v. Perkins, 569 U.S. 383, 386 (2013). He has also failed to
show that reasonable jurists could disagree with the district court’s
determination that his claims concerning infirmities in his state habeas and
DNA testing proceedings were not cognizable on federal habeas review. See
Miller-El, 537 U.S. at 327; Ruddv. Johnson, 256 F.3d 317,320 (5th Cir. 2001).
Accordingly, his COA motion is DENIED.

Gregg
United States Circuit Judge

3

United States District Court
Fastern Distr icf of Tex,as
Lufkin, Division
l^Elpon Bpyce. Bridges

%

fefifi oner

§

§ C-ivd Cose //p. *?;/7-o^- 2.
vs.
EoLby Lumpkin - Pi rector f
“Texas Dept Coin JUdc-e- %
__________ Respondent §

Go(b) IVohion
Conies tic?a> Petitioner^ pursuant to federal Rules
Pf Civil Procedure Rule C>F(b^ Relief From a Judgment
Order, or Proceeding, Ph Fiction andJust terms
the- court may relieve- a party or its legal re-pheserrfative--from a tna( judgment, or proceeding t-r
the- tol Ipu>i'ng reasons:
0)mistake, Inadvertance, surprise, or excusable,
neglect(z) newly discovered evidence tfin^ ufith reason#i>/<e
diligence could not We. been discovered intme
to move* tor a fieuTTriul under ^(b)j
(?) “fraud (_utea+her previously railed intrinsic or
extrinsic^ misrepresentation, or misconduct
by an opposing party j
(4)-fte Judgment is void '
f^J+be. judgment has been Sat sf iet, rejense.4,
Pf discharged^ it is based on an earlier

I.

judcjfYlehr}" that has been reversed e>r Vacafedj
pr applying it prospectively is np longer editable)
[6>) any other reason that Justifies relief.
(rf) 0^t First Hydra ordinary Circumstance.
Xn "Texas thedic'd step in a criminal "trial is rfrraianment
Vern.T^xas Code Crirl Proo. art 27.019 fieti'ti brier no(ds
this action VDilJor ifoufaft voidable action took place,
cdthe [5?/z/7fhtudieial District Court of Angelina County,
"Tejeas, (s£E-’. Prlft 4ppeaI A/p. 01R c£, erlex. Habeas C&rf>us^ftk7H>

u)

Texas LaIV ad Viait/er Cf Xhdi’cdnient * Article LI4-1
JeX.C.Cdtv.Prec, bold a "radical defect" in Bridges' cause.
4bat which is contrary tt> the principles of /an/, as
distinguished from mere rales of procedure,that
Constitutes a Complete, defect in the proceeding
tUman V.
34 7x U8(ie7l);Tex*s fair PetenseXf
Rex to. V. State; Ceftf S.u) 2d (p2S£rex,Crim $pp tffzd)'. Simmons
Vjts;/ yiD US 317(i%6) holds & Rev,'a /Article 2&M%2
pc-e-ir/al ’ ("rf defend ante fal are do raise some
Constitutional claim cd 7ejcC.Cnm.P. art
2B.o\ pre.~tria I hearing, does not bar
him later raising it up to the day of
dria(,“) Arraignment (s pre-trial
unfit resoUedj and petitioner asks
[di'd-fheSlate hAi/ejansdic+ibn or
issue a Voidable. Order f]
The uxxtvec entered Via Article 1.1+11ex.C.Crim.P.
Welds} and states«*,.A person represented by

z.

counsel j yy\.c\y in open courf c>r by
WrfH'en insfrumenf volan+anl vJa. c/e.
l
dfie rigHf 4t> be accused by inMictraenh
<£>f any o+fense offer
an
capdW o-ffense, [flhsenijj^hn Wedh*Tr.

Cc>u.n&&\ csf choice.-Paid In-Pull,
Pehfipner's Counsel had a signed contract -k> defend
fridges af crimiml cause na 7/7ct7R, and he breached
•ffus confraaf- prrftle; tr>i-ffim records. ~Tejcas crties:
a Couch VioUfes a pro-ced wral shftue,
tfWi’de l.i+l|VWorney Hea-fh"j%senf'f/? breach]
rb has Corn miffed error which maj render
a com*<0+1 on base upon 4+10+ error subject
reversal, * and if is a ' Voi d able can i//cfp/?, "

£xpar+e, meCain. C/l S,U)3A2Pffex.Cr<tn./to#©z);

CMy of Lufkin, v. Wicker, 5/es.u) 2d iiJpexXiV y
%>. Beaumont R73)jXh re fWareno 4 S. U) ‘3rf'l'78
^plains J /l i/pid act is aJudicial act W hich is J3’

erv+iVe|y nu(| unfhm itself not binding on
■Cihkcr par+y; and which is nob suseep+nbl-e.
c?p CaT\Ti'cAVionj
ifs nullify canneb be.
U/a’vecL
t'eA. k.Civ. P. £u|e 66(b)(4) musf /sswey /fs grand resernp/r
.
of editable pouoerfo d&oJuefice,"77ie £/.S, D/sfr/bf
Court- <fid fake Jurisdiction over pefifi'oners rase
uf "Shoio Cause Order" Veckehhlo.7(pH-ftpj^oi?), ~Thon
"abused ids fisc ref on" In +heft>llc>toin<g'
l)The Voidable nef alleioing fhe'VcuVer of
indic+mercV", not held anfhin SreWer Vs,
WiUiams, 43D US J87(jcict'7)(+ln Orderfo be
valid. a vtaWer m«sf be entered after -the.

3.

defendant has been infor m eJj pQihh eoun^A
pre-Serf
Pe.frf'ioner did claim %>f Giuilty". in the record.j and the,
stand ifi ottornej rs Conflict'' or "ah use ofdiscretion*
mnkhna a "breach of confracf'' a Venable, action,
tmahicn a docarnenff tn which the terms of a contract
&,('& lA^Ciftef), Slacks (_Aio iPVhEd, t cx>rtmctie> a
promise- or sed" pf promises^ Her breach of which
4he laiocyves remedy.
~T7i-e> H.S. District Court has FR.C..P. 6D(e)(3)
"■sef aside aja^men-f-fee -pr«ud c-n -fhe Cowed " „ Xn
G?fher pouoerg, -foc^r<wof relief. 'Petitioner holds
-{hie Voidable ftcfioo^ upon this motion to the toncntle
CourV. 'Wo /fu thority need to he cfhud for-fhe
propc-erfion'Hnccf, when an ^
mert
rendered by rfis Void, and'unenforceable,11
Hooker V. Boles Zt5 fid 26^26^0^)j

Plain V.Ihihodat lops.ct 20sz(\H&o)tJ fin
Order Is void when a court has no
potoer or jurisdiction to render it
Urbieh y, Wth Judicial District Court
Judical Disfrfcf Court" issued i/oidable ivtoiVer
wHkin a broken eonfracV^thet cannot he. held within
■fhe power of courts “ta> in'forceJ or due process in
civil cause is revieuoahle re(ref;via breach.
(&) DtVier Extraordinarj Circumstance,s
ffehftoneJr holds 'Dpckef /Jc>, S’ Correspondence^'#^
Response^ in conclusions of Into memorandums with

t.

lb ex h i Lib'j Docket Me. % t^cticeilDThe Court r-e. Additions /
Fy(hibTts;uS more than the- onefa filed at State Habeas
Corpus, and the. ihal court <d,'A" add" add/ficna I documents
pf state trial (other State Habeas rul/ng j-fhus violation
et Supreme Courts rufiVij in Cullen 7 PinhoJsterj £6=3 US no
lei-Btfoli) fated at "note-s" bottom pg Z Vccht^&Z-/)tu's is
additional) abuse-of-discretion at Federa I District Cc-arh.
i)Thcket fJo. 5 o)«s before shooo cause. order: Court
-tailed tro strike. cc denyj
2) Docket b.‘Z5) b fl-pfer shptu cause, order, and TS tff7
expansion ct the. record:
3) Docket fk>. 'He Is also afterrisdictional shouo
CauSS-order, and Is '*Extraordinary Circumstances!1
Suck V- Dart's, (37 S.Cf 757b>bj Gxorrzalez V. Crosby,

svsu&s&f; m s.ct Z67-//Tcobh

'

(c) Final Extraordinary Circumstance.
The D/sfricT Court did m/stakenfy, hadvtrfance,
supn'se, or excusable neglect {6o(b)C)J-/>i ruling -that
petitioner had never had post-conviction counsel.
SEE. Docket (Jp, U2r I Z line 13 m text, fyohn Reeves at PDR)
Xn Adams V.Thaler, 677 F3d 3(7 fathdr 2dll)/3ZS.Ct.M3'
feoti)explains a £>D(b) motion does not contain
a habeas corpus claim, and thus should/Met
be- construed as a succesh/e petition) when
the moh on attacks, not the substance- of a
-federal court’s resolution of a claim on
the merits, bat some defect in the integrity
of the Federal Habeas Corpus proceedings.
£.

Thus, V/hen The ITS. Dlsfn’ct Court
transfered.
the fUb) Motion to the 5th Circuit Court cf Appeals
Stated; 'Vhere, under state law claims of Ineffective.
assistance. ofttal Counsel must be raised in
an intial- rei/leto collateral proceeding, a
procedural default will not bar a Federal
C-ou-rt -from bearma a substantial claim
of ine-ffective. assistance «t trialj It the
/nfial-rev'leej collateral proceedings,there
U>as no counsel In that proceeding, or
Was in effective,,u TVs Is
table
tb|llng and not const tut ionaI ruling,
Xd (B-Adams,
Petitioner holds the Federal District Court's state­
ment as /(the- record(shou>s)e.sfab//W?e-s that
petitioner has not been represented
by Counsel In any post-conv/ioti on proceedings/
tVcrnoraoAcKrn Order LVocket*tZ~ !f>^.
Z Lines 12-/3. Th/s flh stake holds "extraordinary relief,“
Buck g, 137 act 752 j (Vnmle-z.NI. Crosby. IZ5S.Cd.ZCdf/„
TT this, the Supreme Court, hotoeVer, has held therfthe
"erroneous deprivation of the right to counsel pf chare"
is a "structural error" In Violation of the Sixth ftmesdmerk
and is not subject to harmless-error analysis, U.S, V.
Gonzalez.- Lopez, S'tB US ItD >150-152, l2/LS.0t2557(zcprQ,
Other structural errors" Include the denlalcf counsel,
the denial of rightof self-representation^ and the denial
of fhe right to a puUictrfaL xAE 14V
Bridges uj>aS removed from DNfV appeal counsel of his
Seif- representation of state's Petition FerProcffitSTf

6.

P/'scre-Konary Review by <Prder &P0-£5V4-/3 -prom the
Texas Criminal Ccwrt Op appeals with Pidditlvna I jfArticle
(And Evidentiary Filings Meedecf), -fhen -Hie frud court^ "rO
"
-Hfbrhey, and he -Piles a joint- motion
With states attorney, ioifk-out (evidentiary rr aMitirnd
fitiVcjsJ^e^eo]), ant abandons Bribes Direct Appeal ii&ites
(jMhle-hi>5/«nd'Z&.ct Ccde-s^nt courts ‘'Extraordinary G>D(b)(0P3
as tried court "abuses its discretion'' cd Ld>(t)(i)
Hmis conduct by an opposing party ‘ alloutng ^ 'tbCrt
Filing and Mo evidentiary hearing ordered by the.Court
Ot Criminal Appeals^ Vacate, rei/arse, and remandfjj^yet
the. District Court at Federal Habeas Corpus, PiD/Jor
SEE TH/5 XM THE EeC(?RDS.
The choice- ef attorney u/ill effect whether and. on
what terms the defendant cooperates with the pcosecuti(on
plea bacginSj or decides instead to go to trial. X light
of these my rid aspects vf representation/the erroneous
denial of counsel, bears directly on the tea me Work Within
which the trial proceeds, or indeed on coh ether it proceeds
at all t* t> ftlary counseled decisions, including those,
involving plea bargains,,, do not even concern the
Conduct at trial at all, 3d£(SZ>, Petitioner Bridges had
been denied counsel eh choice., and self- representation
thtSJ^Wes Extraordinary £ellet'' ,
The, t£tth/2l7ih Judicial District Court is a goVerment
age-nicy,ana they cannot have '“breached, voidable contracts'
held Within the"courts due coarse attain'1 or the vejcy
Sovereignty lOvtbin the. United States or state heap
therein, held by the citizens are at risk ,

7,

Broken] Open contract^ cannot Be acteA upon nor
completed MrrKl "f+tey Are reec.|v'-e4j £(W( precess Lrpacjhit
Before- 4 eontro(iVig cc^hM" -Per resolution or surf) as
pue Process re^ f res,
The Unife4. StaBe-s Con sfi-(retain tozas Sj^ne^c An4
-ffte ratifying ke-M By contract u>Ah tte afiz-ens &P
-$hh nation t uppn -H-ve. s^n«rfK.ree> «n4 termers \sthe~
VerV “febric. «sf #ii’s nation. RELIEF /§ n//irran-f-e4
e\ri a pehfioner Bruges uek 4he Gour'i' -fo ae-kj
rand' all dVuxI' »'<=> deemed jue^ an4 proper «S
uuo re^H i res /
ftespectfuikr^^tlei

'kltUrr/' fy0Mp

WeAttl 211^20

W^LDoAi BpSd&cs
pro- se-

Ven-fi cation ofSenAeeX^ u/e-Uc>n Bruges ur4er stand 4ha+ n take- statement or
answtt' ("n +h\5 u\cc) vVill sukjeed me.+o dhe penalties
ct perjury. TT4edare^yerrfy,or certify an<\ state) -fhaf
-fhe -tar-egtkncj ('s "(rue
correct,

6.

\

\

L

State.OfTSxas
County Df Liberty

Aftidavit
X, WeLDoM B-RIDGiE.£>/ TpCT-C-IDAlo,, lS0S3P&>^ depose and
SAy thatl am eighteen (19) years of age or older of sound
rrund^rid, b>vdy) and I am capable of iUnkiacjihc felieutiny
sfaWnent'
On December £(, 107D} X Weldon Bridges did tile a
■(_(fO(b) Motion} Within Case /Jo. c\i\7-cv-7] UnitedSkatesDistrict
Court, LwtWnjXvisior^ holding United States SupremeCourt UW/2£U9CS§ /25-f j Federal Rules of Civil focebrs.
With this document X request the District Court to
revieuo lie -findings at Memorandum Opinion and Order
(page 6>),-that is subject tot0(ci\/il action)oi "implicittactual
findings11 of “incorrectness of presumptions or mistakej
Mddvertance upon~fexas Court Of Cnmmal Appeals Order,
issued pn hleVember tZDj 20131 and this Order is Direct Appeal,
{RD-05'f6-/3, Lost Order} Docket R-2Z. Texas Code. Of Criminal
Procedure Article 1 ,D5/; and 26.0t are A/of DA/ ft La u/S,
Qlrticle6t05” ,'s DA/A)' Counsel] (the £>k>l tfjZo 17 docket filincj
was trom the State> tVius^ Direct Appeal Order«,
This factual tiling holds2 wany other reason" of -the
extraordinary circumstances of (r>0(h)(C).i thatjusf/tes

relief.
Weldon Bridges^ do hereby Sioear and atfirrr\j sfrfe,
Certify} Verifyj pt declare that the tvetaoina\s~true and correct,
RespechtalV^fcrnftted
Fifed pn feb
P’S P lenSe-foriORrd \ 1 re docket.

cattle

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 1 of 16 PagelD #: 1139

**NOT FOR PRINTED PUBLICATION**
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
LUFKIN DIVISION
WELDON BOYCE BRIDGES

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 9:17-CV-2

MEMORANDUM OPINION AND ORDER
Petitioner, Weldon Boyce Bridges, a prisoner currently confined at the Dalhart Unit of the
Texas Department of Criminal Justice, Correctional Institutions Division, proceeding pro se and in
forma pauperis, filed this petition for writ of habeas corpus pursuant to 28 U.S.C. § 2254.
Factual & Procedural Background
Petitioner was indicted on two counts of aggravated sexual assault of a child on April 29,
2008 in the 159th District Court of Angelina County in CR-27979-A . Indictment, pgs. 20-21
(docket entry no. 19-6). On July 15,2009, as part of a plea agreement, petitioner pleaded guilty to
count two ofthe indictment and was found guilty and sentenced to twenty-two years’ imprisonment.
Petitioner waived his right to appeal. Clerk Record (docket entry no. 19-7); Written Plea
Admonishments-Waivers-Stipulations, pgs. 66- 70; Supplemental Admonishments, pgs. 71-72;
Waiver of Right to Appeal, pg. 73-75; see also Clerk Record, Judgment of Conviction, pgs. 77-78.
Count one was dismissed as part of the plea agreement. Clerk Record, Motion to Dismiss, pg. 74
(docket entry no. 19-7).
On January 2, 2012, petitioner requested DNA testing pursuant to Article 64.01(c) of the
Texas Code of Criminal Procedure. Clerk Record, pgs. 87-89 (docket entry no. 19-7). The trial

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 2 of 16 PagelD #: 1140

court denied the motion on May 25,2012, stating that (1) previous DNA testing was done, (2) that
DNA testing did not show any exculpatory evidence, (3) there is no evidence newer techniques
would be more accurate, and (4) there were no reasonable grounds to file a motion for DNA testing.
Clerk Record, Order, pg. 96 (docket entry no. 19-7). Petitioner, proceeding pro se, appealed the
denial of his motion for forensic DNA testing on June 11, 2012. Clerk Record, Notice of Appeal,
pg. 100 (docket entry no. 19-7). On appeal, petitioner also attempted to raise issues relating to the
underlying conviction and trial. Id. The Sixth Court of Appeals affirmed the trial court’s order
denying the motion for forensic DNA testing on April 11,2014. Clerk Record, Bridges v. State of
Texas, No. 06-12-00109-CR (docket entry no. 19-3).' The Sixth Court of Appeals also noted that
because petitioner waived his right to appeal the underlying conviction at the time he entered his
guilty plea, the appeals court could not consider any issues relating to the conviction. Id. Petitioner
filed a Petition for Discretionary Review on May 15, 2014. Clerk Record, PD-0628-14, pg. 18
(docket entry no. 19-13). The Petition for Discretionary Review was refused on July 23, 2014.
Clerk Record, Electronic Record, pg. 1 (docket entry no. 20-10).
Petitioner filed his state application for writ of habeas corpus on June 17, 2015, the date he
certified he placed the application in the prison mailing system. Clerk Record, State Writ, pgs. 7-48
(docket entry no. 20-20). The Texas Court of Criminal Appeals denied the state application for writ
of habeas corpus without a written order on January 13,2016. Clerk Record, Exparte Bridges, WR-

lPetitioner originally appealed to the Twelfth Court of Appeals. The case was transferred to the Sixth Court
of Appeals by the Texas Supreme Court pursuant to its docket equalization efforts. Originally, the Sixth Court of
Appeals dismissed petitioner’s post-conviction motion for DNA testing due to petitioner’s failure to file an appellate
brief. Rr/dgas v. State, No. 06-12-00109-CR, 2013. Petitioner filed a Petition for Discretionary Review. On
November 20, 2013, the Texas Court of Criminal Appeals vacated the judgment of the Sixth Court of Appeals and
remanded the case consistent with its opinion. Clerk Record, Bridges v. State, PD-0546-13, pgs. 6-7 (docket entry
no. 19-9).

2

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 3 of 16 PagelD #: 1141

81,290-03 (docket entry no. 20-17).2 Petitioner filed this federal writ of habeas corpus on December
22,2016, the date petitioner certified he placed the petition in the prison mailing system. Original
Petition (docket entry no. 1).
The Petition
Petitioner argues the following points of error :
1.

Ineffective Assistance of Counsel due to:
a. failure to have counsel present at arraignment and evidentiary
hearings;
b. failure to make hearsay objections and unspecified objections in
general; failure to investigate and develop exculpatory evidence; and
c. denied counsel at post-conviction DNA hearing; first-tier review
(DNA Appeal).

2.

Jurisdictional-Abuse of Discretion due to:
a. convicting court failed to arraign petitioner;
b. convicting court denied petitioner counsel;
c. convicting court issued void orders on DNA appeal relating to
disqualification and recusal; and
d. the Texas Court of Criminal Appeals denied petitioner counsel on
appeal and post-conviction writ of habeas corpus proceedings.

3.

Violations of Due Process of Law because:
a. the State withheld exculpatory evidence;
b. the entire file was not forwarded during the state habeas
proceedings;
c. petitioner did not have counsel at pre-trial, preliminary, and
evidentiary hearings;
d. petitioner denied a complete record on appeal;
e. the State submitted an affidavit from a dismissed cause; and

Petitioner filed additional pleadings in state court that are not directly related this federal petition for writ
of habeas corpus: “Writ of Prohibition” filed on April 4, 2014 and denied on June 11, 2014. Ex parte Bridges, WR81,290-01 at 1, Action Sheet (docket entry no. 20-11); “Writ of Mandamus” filed on September 14,2015 and denied
on October 7, 2015. Ex parte Bridges, WR-81,290-02 at 3-4, Action Sheet (docket entry no. 20-15); and “Writ of
Mandamus” filed on December 21,2015 and denied January 13, 2016. Ex parte Bridges, 81,290-04 at 2-3, Action
Sheet (docket entry no. 20-21).

3

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 4 of 16 PagelD #: 1142

f. the local rules of court were not followed in that petitioner was
arraigned in the 217th Judicial District Court without counsel present.
4.

Actual Innocence because trial counsel failed to investigate or submit
exculpatory evidence that:
a. alleged victim was at camp during time frame;
b. the alleged victim suffers from mental issues;
c. the alleged victim’s state of mind was affected by marijuana;
d. there was no physical sign of trauma, injury, or penetration; and
e. the outcry was in retaliation for petitioner’s persecution of the
father and divorce of the mother.

Original Petition (Docket entry no. 1).
Response
The Government was ordered to Show Cause on April 10,2017 (docket entry no. 7) and filed
a Response on June 19,2017(docketentryno. 18). The Government argues petitioner’s claims are
time-barred, waived or not cognizable on federal habeas review.
Standard of Review
Title 28 U.S.C. § 2254 authorizes a district court to entertain a petition for writ of habeas
corpus on behalf of a person in custody pursuant to a state court judgment if the prisoner is in
custody in violation of the Constitution or laws or treaties of the United States. 28 U.S.C. § 2254(a).
The court may not grant relief on any claim that was adjudicated in state court proceedings unless
the adjudication: (1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, or (2) resulted in a decision based on an unreasonable
determination of the facts in light of the evidence presented in state court. 28 U.S.C. § 2254(d). A
decision is contrary to clearly established federal law if the state court reaches a conclusion opposite
to a decision reached by the Supreme Court on a question of law or if the state court decides a case
differently than the Supreme Court has on a materially indistinguishable set of facts. Williams v.
4

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 5 of 16 PagelD #: 1143

Taylor, 529 U.S. 362, 412-13 (2000). An application of clearly established federal law is
unreasonable if the state court identifies the correct governing legal principle, but unreasonably
applies that principle to the facts. Id. An unreasonable application of law differs from an incorrect
application; thus, a federal habeas court may correct what it finds to be an incorrect application of
law only if this application is also objectively unreasonable. Id. at 409-411. “A state court’s
determination that a claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists
could disagree’ on the correctness of the state court’s decision.” Harrington v. Richter, 131 S.Ct.
770, 786 (2011) (citation omitted). “[Ejven a strong case for relief does not mean the state court’s
contrary conclusion was unreasonable.” Id. The Supreme Court has noted that this standard is
difficult to meet “because it was meant to be.” Id.
In addition, this court must accept as correct any factual determination made by the state
courts unless the presumption of correctness is rebutted by clear and convincing evidence. 28
U.S.C. § 2254(e). The presumption of correctness applies to both implicit and explicit factual
findings. See Young v. Dretke, 356F.3d616,629 (5th Cir. 2004); Valdez v. Cockrell, 274 F.3d 941,
948 n.ll (5th Cir. 2001) (“The presumption of correctness not only applies to explicit findings of
fact, but it also applies to those unarticulated findings which are necessary to the state court’s
conclusions of mixed law and fact.”).
Analysis
1. Statute ofLimitations
Respondent argues petitioner’s claims 1(a) and (b), 2(a), 3(a), (c), (e) and (I), and 4(a)-(c)
are time-barred.
Congress enacted the Antiterrorism and Effective Death Penalty Act of 1996 (the Act), Pub.

5

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 6 of 16 PagelD #: 1144

L. 104-132, llOStat. 1218, on April 24,1996. Title I of the Act applies to all federal petitions for
habeas corpus filed on or after its effective date. Lindh v. Murphy, 521 U.S. 320, 326 (1997).
Because petitioner filed the instant petition after its effective date, the Act applies to his petition.
Title I of the Act substantially changed the way federal courts handle habeas corpus actions.
One of the major changes is a one-year statute of limitations. See 28 U.S.C. § 2244(d)(1). The one
year period is calculated from the latest of either (A) the date on which the judgment of conviction
became final by the conclusion of direct review or the expiration of the time for seeking such
review; (B) the date on which an impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was prevented
from filing by such State action; (C) the date on which the Supreme Court initially recognizes a new
constitutional right and makes the right retroactively applicable to cases on collateral review; or (D)
the date on which the facts supporting the claim became known or could have become known
through the exercise of due diligence. See id. § 2244(d) (1)(A)-(D).
Ordinarily, the one-year limitation period starts to run from “the date on which the judgment
became final by the conclusion of direct review or the expiration of the time for seeking such
review.” 28 U.S.C. § 2244(d)(1)(A). Here, petitioner pleaded guilty and was sentenced on July 15,
2009. Petitioner did not file a direct appeal of the conviction. Thus, the state court conviction
became final on August 14, 2009, at the conclusion of thirty days in which petitioner could timely
file a direct appeal. See Roberts v. Cockrell, 319 F.3d 690,694 (5th Cir. 2003); TEX. R. APP. P. 26.2
(a). Because petitioner filed his federal petition more than one year after his conviction became
final, a literal application of Section 2244(d)(1) renders his December 22, 2016 filing untimely.

6

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 7 of 16 PagelD #: 1145

Petitioner has not shown that an alternate start date is applicable to his claims relating to his
guilty plea. Petitioner has not shown that any unconstitutional “state action” prevented him from
seeking federal habeas corpus relief prior to the end of the limitation period.

28 U.S.C. §

2244(d)(1)(B). Moreover, petitioner’s claims do not concern a constitutional right recognized by
the Supreme Court within the last year and made retroactive to cases on collateral review. 28 U.S.C.
§ 2244(d)(1)(C). Finally, petitioner has not shown that he could not have discovered the factual
predicate of his claims until a date subsequent to the date his conviction became final. 28 U.S.C.
§ 2244(d)(1)(D).
a. Statutory Tolling
The Act expressly and unequivocally provides that “[t]he time during which a properly filed
application for State post-conviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation under this subsection.” 28
U.S.C. § 2244(d)(2). Thus, a state petition for habeas relief is “pending” for the Act’s tolling
purposes on the day it is filed through (and including) the day it is resolved. See Windland v.
Quarterman, 578 F.3d 314, 317 (5th Cir. 2009).
According to petitioner’s federal application for writ of habeas corpus, he filed his state writ
of habeas corpus on June 17, 2015. This is almost five years past the August 14, 2010 filing
deadline. And, although a motion for DNA testing qualifies as “other collateral review” under 28
U.S.C. § 2244(d)(2), petitioner’s motion for DNA testing was filed on January 2, 2012, a year and
a halfpast the filing deadline. See Hutson v. Quartmeman, 508 F.3d 236, 239 (5th Cir. 2007). It
is well settled that a document filed in state court after the limitations has expired does not operate
to statutorily toll the limitations period. See Scott v. Johnson, 227 F.3d 260, 263 (5th Cir. 2000).

7

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 8 of 16 PagelD #: 1146

As such, the state application and motion for DNA testing fail to toll the federal filing deadline.
b. Actual Innocence
Petitioner asserts actual innocence in order to overcome the procedural bar. The Supreme
Court has held that “actual innocence, if proved, serves a gateway through which a petitioner may
pass” despite the expiration of the statute of limitations applicable to federal habeas applications.
McQuiggin v. Perkins, 569 U.S. 383, 385 (2013). A petitioner attempting to overcome the
expiration of the AEDPA statute of limitations by showing actual innocence is required to produce
new evidence sufficient to persuade the district court that “no juror, acting reasonably, would have
voted to find him guilty beyond a reasonable doubt.” Id. (quoting Schlup v. Delo, 513 U.S. 298,329
(1995)).
To open the gateway to federal habeas review, a petitioner asserting his actual innocence of
the substantive offense must: (1) present “new reliable evidence - whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence,” (2) “that was
not presented at trial;” and (3) must show, that in light of this new evidence, “it is more likely than
not that no reasonable juror would have found petitioner guilty beyond a reasonable doubt.” House
v. Sell, 547 U.S. 518, 537 (2006) (citing Schlup, 513 U.S. at 299)).
Here, the arguments petitioner proffers that could be interpreted as a claim of actual
innocence are supported by evidence that was available to him prior to the entry of his guilty plea.
Furthermore, petitioner’s guilty plea inherently defeats his ability to make a showing of actual
innocence that is required. “Actual innocence,” in this context, means factual innocence and not
mere legal sufficiency. Bouselyv. United States, 523 U.S. 614,623-24(1998). Indeed, some circuit
courts have held a guilty plea forecloses a petitioner from arguing actual innocence to extend the

8

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 9 of 16 PagelD #: 1147

statutory time period under McQuiggin. Jackson v. United States, 2013 WL 5295701, *3 (E.D. Wis.
Sept. 18, 2013); Sidener v. United States, 2013 WL 4041375, *3 (C.D. Ill. Aug. 8, 2013)
(“Petitioner’s admission to the factual basis demonstrates that Petitioner cannot make a showing of
actual innocence.”); United States v Cunningham, 2013 WL 3899335, n. 3 (S.D. Tex. July 27,2013).
Petitioner’s evidence of innocence is insufficient to demonstrate that it is more likely than not that
no reasonable juror would have convicted him in light of the newly presented evidence, especially
in light of petitioner’s guilty plea. Schlup, 513 U.S. at 327. Petitioner has simply failed to establish
actual innocence to overcome the procedural bar.
c. Equitable Tolling
Petitioner has also not demonstrated any facts entitling him to equitable tolling. See Davis
v. Johnson, 158 F.3d 806, 807 (5th Cir. 1998) (holding that the limitations period can be equitably
tolled in extraordinary circumstances). Equitable tolling is a discretionary doctrine turning on the
facts and circumstances of each case and petitioner bears the burden of establishing entitlement to
equitable tolling in the AEDPA context. Fisher v. Johnson, 174 F.3d 710,713 (5th Cir. 1999), cert.
denied 531 U.S. 1164 (2001); Felder v. Johnson, 204 F.3d 168,171 (5th Cir. 2000), cert, denied 531
U.S. 1035 (2000); Phillips v. Donnelly, 216 F.3d 508, 511 (5th Cir. 2000). For equitable tolling to
apply, the applicant must diligently pursue his Section 2254 relief and equity is not intended for
those who sleep on their rights. Fisher v. Johnson 174 F.3d 710, 715 (5th Cir. 1999); Coleman v.
Johnson, 184 F.3d 398, 403 (5th Cir. 1999).
In the present case, petitioner has not shown he acted diligently while pursuing habeas relief
in both the federal and state courts. As a result, he has failed to demonstrate that any principles of
equitable tolling save his petition.

9

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 10 of 16 PagelD #: 1148

2. Guilty Plea Waived All Claims Not Relating to the Voluntariness of the Plea
Alternatively, petitioner’s claims 1(a) and (b), 2(a), 3(a), (c), (e) and(f), and4(a)-(c) and any
other of petitioner’s claims relating to the time before or at the time of his plea were waived by his
voluntary guilty plea. Because petitioner voluntarily pleaded guilty to the conviction he is now
challenging, petitioner waived the right to challenge all non-jurisdictional defects in his proceedings.
It is axiomatic that a guilty plea is valid only if entered voluntarily, knowingly, and
intelligently, “with sufficient awareness of the relevant circumstances and likely consequences.”
Bradshaw v. Stumpf 545 U.S. 175,183 (2005); United States v. Hernandez, 234 F.3d 252,254 (5th
Cir. 2000). A plea is intelligently made when the defendant has “real notice of the true nature of the
charge against him.” Bousleyv. United States, 523 U.S. 614, 618 (1998) (internal quotation marks
omitted). And a plea is “voluntary” if it does not result from force, threats, improper promises,
misrepresentations, or coercion. United States v. Amaya, 111 F.3d 386, 389 (5th Cir. 1997). The
longstanding test for determining the validity of a guilty plea is whether the plea represents a
voluntary and intelligent choice among the alternative courses of action open to the defendant. Hill
v. Lockhart, 474 U.S. 52, 56 (1985); United States v. Juarez, 672 F.3d 381, 385 (5th Cir. 2012).
The record in this case demonstrates petitioner’s plea was voluntary and intelligent and were
not the result of any misrepresentation.

To start, the voluntariness of petitioner’s plea is

demonstrated by his signature on the Written Plea Admonishments-Waivers-Stipulations and
Supplemental Admonishments. Pgs. 66-72 (docket entry no. 19-7). These documents demonstrate
petitioner was admonished as to the maximum punishment range for aggravated sexual assault of
a child (first degree felony for a term of life or any term of not more than 99 years or less than 5
years). Petitioner also makes the following concessions in his plea agreement:

10

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 11 of 16 PagelD #: 1149

1. I understand the foregoing admonishments from the Court and am aware
of the consequence of my plea. I further state that I am mentally competent,
that my plea is freely and voluntarily made.
2. I am totally satisfied with the representation provided by my attorney who
provided fully effective and competent representation.
3. Under Art. 1.14C.C.P. I give up all rights given to me by law, whether of
form, substance or procedure, including any time limitations imposed under
the U.S. Constitution or Chapter 32 C.C.P.
4. Joined by my attorney, I give up all right to a jury in this case under Art.
1.13 C.C.P., and I give up my right to appearance, confrontation and cross
examination of witnesses under Art. 1.15 C.C.P. I consent to oral and written
stipulations of evidence in this case. I give up my right to remain silent, both
at the guilt-innocence and punishment phases of my trial.
5. I also waive and give up the 30 days provided in which to file a Motion
for New Trial, Motion for Arrest of Judgment and Notice of Appeal.
6. I completely understand all of the written waivers, stipulations, and
motions herein stated in connection with the plea, and each was done freely,
voluntarily and intelligently.
7. The State and I mutually recommend to the Court that punishment in this
cause be assessed at 22 years in prison.
8. Understanding and agreeing to all of the above, I freely and voluntarily
plead guilty and confess my guilt to having committed each and every
element of the offense alleged in the indictment or information by which I
have been charged in this cause.
Id. The District Attorney, petitioner’s trial counsel and the Court also signed the agreement after
concluding that petitioner was legally competent to stand trial and that the statement made by
petitioner were freely and voluntarily made and entered and that petitioner understood the
admonitions given to him by the Court and that he was aware of the consequences of his plea. Id.
Petitioner’s signature on the guilty plea documents is prima facie proof of the validity of the
plea and is entitled to “great evidentiary weight.” Theriot v. Whitley, 18 F.3d 311, 314 (5th Cir.

11

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 12 of 16 PagelD #: 1150

1994); United States v. Abreo, 30 F.3d 29,32 (5th Cir. 1994) (citing Hobbs v. Blackburn, 752 F.2d
1079, 1081 (5th Cir. 1985)). Petitioner’s formal declarations in open court also carry “a strong
presumption of verity” and constitute a formidable barrier to any subsequent collateral attack.
United States v. Kayode, 777F.3d719,729 (5th Cir. 2014) (quoting Blackledge v. Allison, 431 U.S.
63,74 (1977)). Because petitioner has not provided any evidence or argument that would overcome
these “strong presumptions of verity,” this Court denies any allegation made by petitioner
concerning the validity of his guilty plea. Blackledge, 431 U.S. at 74 (finding “[t]he subsequent
presentation of conclusory allegations which are unsupported by specifics is subject to summary
dismissal.”).
Furthermore, by entering a knowing, intelligent and voluntary guilty plea, a defendant waives
all non-jurisdictional defects preceding the plea. Tollett v. Henderson, 411 U.S. 258, 265 (1973);
United States v. Scruggs, 714 F.3d 258, 261-62 (5th Cir. 2013). This rule encompasses errors of
constitutional dimension that do not affect the voluntariness of the plea - including claims of
ineffective assistance of counsel - unless the alleged ineffectiveness relates to the voluntariness of
the guilty plea. Smith v. Estelle, 711 F.2d 677, 682 (5th Cir. 1983) (waiving claims of ineffective
assistance, except for claims related to voluntariness of plea).
Here, petitioner argues counsel was ineffective as he was not present at the arraignment and
evidentiary hearings, failed to make hearsay objections and unspecified objections in general and
failed to investigate and develop exculpatory evidence. Original Complaint (docket entry no. 1).
But, petitioner fails to demonstrate how this alleged ineffectiveness relates in any way to the
voluntariness of his guilty plea. Accordingly, petitioner’s claims are waived by his knowing,
voluntarily, and intelligent guilty plea.

12

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 .Page 13 of 16 PagelD #: 1151

3. Infirmities in State Habeas Proceedings Not Cognizable
Petitioner’s claims 1(c), 2(b)-(d), and 3(b) and (d) relate to petitioner’s motion for post­
conviction DNA testing. Petitioner’s claims raise only questions regarding his rights under state
law, not federal law, and are not cognizable on federal habeas corpus review. See 28 U.S.C. §
2254(a); Johnson v. Thaler, 2010 WL 2671575, at *3 (S.D. Tex. June 30,2010) (citing Trevino v.
Johnson, 168 F.3d 173, 180 (5th Cir. 1999) (claim of ineffective assistance during post-conviction
DNA testing proceeding presents no federal constitutional issue and does not warrant relief). These
claims simply fail to raise a federal constitutional issue as the challenges attack a proceeding
collateral to the conviction and detention and are foreclosed by circuit precedent. See Rudd v.
Johnson, 256 F.3d 317, 320 (5th Cir. 2001) (citing Nichols v. Scott, 69 F.3d 1255, 1275 (5th Cir.
1995).
4. Actual Innocence
To the extent petitioner asserts a “freestanding” claim of actual innocence, this claim does
not provide abasis for federal habeas relief. Dowthitt v. Johnson, 230 F.3d 733,741 (5th Cir. 2000)
(citing Herrera, 506 U.S. 390, 400 (1993)). “This rule is grounded in the principle that federal
habeas courts sit to ensure that individuals are not imprisoned in violation of the Constitution - not
to correct errors of fact.” Herrera, 506 U.S. at 399. Although the Herrera court left open the
question of wether, in a capital case, “a truly persuasive demonstration of ‘actual innocence’ made
after trial would . . . warrant habeas relief if there were no state avenue open to process such a
claim,” the Fifth Circuit has consistently rejected this theory.3 Hererra, 506 U.S. at 417; see also

3In later revisiting the issue of actual innocence, the Supreme Court declined to resolve the question of
whether freestanding actual-innocence claims are to be recognized in federal habeas proceedings. House v. Bell, 547
U.S. 581, 555 (2006).

13

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 14 of 16 PagelD #: 1152

Cantu v. Thaler, 632 F.3d 157, 167 (5th Cir. 2011) (vacated on other grounds); In re Swearingen,
556 F.3d 344,348 (5th Cir. 2009); Graves v. Cockrell, 351 F.3d 143,151 (5th Cir. 2003) (collecting
cases). Because petitioner has not shown an independent constitutional violation, petitioner’s
freestanding claim of actual innocence is not cognizable on federal habeas review.
“Actual innocence means ‘factual innocence and not mere legal insufficiency.’” United
States v. Jones, 172 F.3d 381, 384 (5th Cir. 1999) (quoting Bousley v. United States, 523 U.S. 614,
623 (1998)). “To establish actual innocence, [the] petitioner must demonstrate that, ‘in light of all
the evidence,’ ‘it is more likely than not that no reasonable juror would have convicted him.’”
Bousley, 523 U.S. at 623 (quoting Schlup v. Delo, 513 U.S. 298,328 (1995)). Petitioner has failed
to provide the Court with any new or newly discovered evidence to support his claim. Lucas v.
Johnson, 132 F.3d 1069, 1074 (5th Cir. 1998) (evidence must be “newly discovered,” and not
evidentiary material that was in “essence and character” presented to, or available to present to, the
jury). Petitioner, therefore, has failed to offer “new reliable evidence - whether it be exculpatory
scientific evidence, trustworthy eyewitness accounts, or critical physical evidence - that was not
presented at trial” to support his claim that he is actually innocent of committing aggravated sexual
assault of a child. Schlup, 513 U.S. at 324.
“[E]ven if a truly persuasive claim of actual innocence could be a basis for relief, the
Supreme Court made clear that federal habeas relief would only be available if there was no state
procedure for making such a claim.” Graves v. Cockrell, 351 F.3d 143, 151 (5th Cir. 2003). The
state has already provided a forum in which petitioner’s claim of actual innocence was reviewed and
denied. Exparte Bridges, No. 81,290-03 (Tex. Grim. App. 2016) (docket entry no. 20-17); see also
Graves, 351 F.3d at 151. Petitioner has not shown that this decision was contrary to, or involved

14

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 15 of 16 PagelD #: 1153

an unreasonable application of, clearly established federal law, as determined by the Supreme Court
of the United States. 28 U.S.C. § 2254(d). Petitioner’s freestanding claim of actual innocence
should be denied.
ORDER
It is therefore ORDERED that this petition for writ of habeas corpus filed pursuant to
28 U.S.C. § 2254 is DISMISSED.
Furthermore, after a review of the record in this case, the Court is of the opinion petitioner
is not entitled to a certificate of appealability. An appeal from a judgment denying post-conviction
collateral relief may not proceed unless a judge issues a certificate of appealability. See 28 U.S.C.
§ 2253. The standard for a certificate of appealability requires the petitioner to make a substantial
showing of the denial of a federal constitutional right. See Slack v. McDaniel, 529 U.S. 473,483-84
(2000); Elizalde v. Dretke, 362 F.3d 323, 328 (5th Cir. 2004). To make a substantial showing, the
petitioner need not establish that he would prevail on the merits. Rather, he must demonstrate that
the issues are subject to debate among jurists of reason, that a court could resolve the issues in a
different manner, or that the questions presented are worthy of encouragement to proceed further.
See Slack, 529 U.S. at 483-84. Any doubt regarding whether to grant a certificate of appealability
should be resolved in favor of the petitioner, and the severity of the penalty may be considered in
making this determination. See Miller v. Johnson, 200 F.3d 274,280-81 (5th Cir.), cert, denied, 531
U.S. 849 (2000).
In this case, petitioner has not shown that any of the issues would be subject to debate among
jurists of reason. The questions presented are not worthy of encouragement to proceed further.
Therefore, petitioner has failed to make a sufficient showing to merit the issuance of certificate of

15

Case 9:17-cv-00002-RC-ZJH Document 57 Filed 03/06/20 Page 16 of 16 PagelD #: 1154

appealability. Accordingly, a certificate of appealability will not be issued.
A Final Judgment will be entered separately.
So ORDERED and SIGNED March 6, 2020.

Ron Clark, Senior District Judge

16

Case 9:17-cv-00002-RC-ZJH Document 58 Filed 03/06/20 Page 1 of 1 PagelD #: 1155

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
LUFKIN DIVISION
WELDON BOYCE BRIDGES

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 9:17-CV-2

FINAL JUDGMENT
Pursuant to the Memorandum Opinion and Order filed in this matter this date, it is
ORDERED that this petition for writ of habeas corpus is DISMISSED with
prejudice.
All relief not previously granted is DENIED.
IT IS SO ORDERED.
So ORDERED and SIGNED March 6, 2020.

Ron Clark, Senior District Judge

{HntteiJ States Court of appeals;
for ttje Jf tftl) Circuit
No. 20-40296
Weldon Boyce Bridges,
Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal
Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 9:17-CV-2
Before Jones, Costa, and Wilson, Circuit Judges.
Per Curiam:
IT IS ORDERED that Appellant’s motion for leave to file his
motion for reconsideration out of time is GRANTED.
IT IS FURTHER ORDERED that the motion for reconsideration
of the denial of COA is DENIED.

